The pricing addendum for the BB&T Bright Secured Retail Credit Card is accurate as of Nov 21, 2020

Interest Rates and Interest Charges
Annual Percentage Rate
(APR) for Purchases

Prime Rate + 13.99%

APR for Balance
Transfers

Prime Rate + 13.99%
This APR will vary with the market based on the Prime Rate.

This APR will vary with the market based on the Prime Rate.

APR for Cash Advances
and Overdraft Advances Prime Rate + 18.99%
This APR will vary with the market based on the Prime Rate.
Paying Interest

Your due date is at least 25 days after the close of each billing cycle. We will not charge you
any interest on purchases if you pay your entire balance by the due date each month. We will
begin charging Interest on Cash Advances and Balance Transfers on the transaction date.

Minimum Interest
Charge

•

None

•

$19

•

$10.00 or 3% of the amount of the transfer, whichever is greater.
$10.00 or 3% of the amount of the transfer, whichever is greater.
3% of the transaction after conversion to US dollars.

Fees
Annual Fee
Transaction Fees
• Balance Transfer
• Cash Advance
• Foreign Transaction
Penalty Fees
• Late Payment
• Over-the-Credit Limit
• Returned Payment

•
•

•
•
•

Up to $38
None
None

How We Will Calculate Your Balance: We use a method called “average daily balance” (including new transactions).
Prime Rate: The Prime Rate used to determine your APR is a variable rate and is the highest prime rate published in the “Money
Rates” section of the U.S. edition of The Wall Street Journal as of the first day of the month in which your billing cycle ends.

Branch Banking and Trust Company, a subsidiary of BB&T Corporation, now Truist Bank, Member FDIC. ©2020 Truist Financial Corporation. BB&T®, the BB&T
logo, and Truist are service marks of Truist Financial Corporation. All rights reserved.

MASTERCARD®/VISA® CONSUMER
CARDHOLDER AGREEMENT AND
TRUTH IN LENDING DISCLOSURES

Important: Please read this folder
and retain it for your records.

TABLE OF CONTENTS
MASTERCARD/VISA CONSUMER CARDHOLDER
AGREEMENT AND TRUTH-IN-LENDING
DISCLOSURES ....................................................3
SECURITY AGREEMENT FOR SAVINGS
ACCOUNTS/SAVINGS INSTRUMENTS ..............3
TERMS USED IN AGREEMENT......................4
AGREEMENT BETWEEN BANK AND
CARDHOLDER .............................................4
ARBITRATION AGREEMENT........................11
TRUTH IN LENDING DISCLOSURES AND
COMPUTATION OF ANNUAL PERCENTAGE
RATES/FEES.....................................................13
YOUR BILLING RIGHTS..............................16

2

MASTERCARD/VISA CONSUMER CARDHOLDER
AGREEMENT AND TRUTH IN LENDING DISCLOSURES
This Cardholder Agreement and Truth in Lending Disclosures
(“Agreement”) applies to any MasterCard Card or Visa
Card (“Card”) previously issued, or to be issued, by Branch
Banking and Trust Company (“Bank”). This Agreement also
governs the issuance and use of “Convenience Checks”
(“Convenience Checks”), Balance Transfers, and the use of
your Cardholder Account to provide Overdraft Protection.
SECURITY AGREEMENT FOR SECURED
CREDIT CARD SAVINGS ACCOUNT
Under this Security Agreement, you hereby grant interest,
pledge, and assign collateral for your Secured Credit Card
Account (“Account”). As a condition of opening this Account,
you must maintain funds as a security interest (“Security
Interest”) in the Secured Credit Card Savings Account (“Secured
Savings Account”) in your name with Branch Banking and
Trust Company (“Bank”) to be held as collateral. This Security
Interest must be in an amount that is equal to the approved
credit limit before the Account may be opened. The Secured
Savings Account opened at Bank used as the Security Interest
hereunder shall be referred to hereinafter as the “Secured
Savings Account” and the terms of this Security Agreement
are incorporated by reference into the BB&T MasterCard/Visa
Consumer Cardholder Agreement and the Interest Rate and
Interest Charges document (“Cardholder Agreement”).
You acknowledge and agree that the Security Interest, pledge,
and assignment in the Secured Savings Account holding your
funds as collateral is to secure payment of all of your existing
and future obligations under your Cardholder Agreement and your
Account. You grant the Bank an interest in all renewals, additions,
proceeds, modifications, substitutions, and replacements of the
Secured Savings Account. You also agree that the Security Interest,
pledge, and assignment gives the Bank the right to redeem,
collect, and withdraw any part or the full amount of the Secured
Savings Account upon any default under the Cardholder Agreement
or in the event your Account is terminated for any reason. This
means that the Bank has exclusive control over the Secured
Savings Account and, if the Account closes for any reason, the
Bank may immediately apply funds in the Secured Savings Account
to pay off any balance on the Account without giving you prior
notice. These funds, however, are not held in trust for you.
If the Bank chooses not to, or otherwise fails to apply your funds in
the Secured Savings Account toward amounts owed on the Account
or otherwise owed under your Cardholder Agreement, you agree that:
(a) the Bank does not waive any right it has to do so at any later
time, and to the extent not prohibited by law, the Bank may apply
such funds at any time, in its sole discretion; and (b) you are not
excused from performance or payment of any obligation owing with
respect to the Account or under your Cardholder Agreement.
Once the Account is opened, you will not be able to lower the
credit limit. However, you may choose to close your Account at any
time. If your Account is closed, the full amount of the Secured
Savings Account may be applied to the outstanding balance.
If your Account is closed, your Secured Savings Account will be
converted into a Regular Savings Account.
3

The funds held as collateral in the Secured Savings Account may
not be available for up to 30 business days following the payoff
and closure of the Account. You are responsible for any amount due
that exceeds the Security Interest in the Secured Savings Account.
You acknowledge that the terms and conditions herein are
in addition to the terms and conditions set forth by the Bank
Services Agreement and the BB&T Personal Services Pricing
Guide for your Secured Savings Account. If any provisions in this
Security Agreement related to Security Interest shall conflict with
any terms or provisions of any other agreement with Bank, the
provisions of this Security Agreement, as it relates to Security
Interest, shall govern over any provisions in other agreements.
You also acknowledge receipt of the BB&T Corporation Consumer
Privacy Notice. Separate from these disclosures, you will
receive the Cardholder Agreement, which includes this Security
Agreement for Secured Savings Accounts, with your credit card.
TERMS USED IN AGREEMENT
The following words have the following meanings in this Agreement:
(a) “Cardholder” means any individual(s), firm, partnership,
or corporation who applies for, signs, accepts, uses, retains, or
authorizes the use of the Card (hereinafter “you,” “your”); (b)
“Cardholder Account” or “Account” means the credit account or
accounts established by Bank for Cardholder for all transactions
under this Agreement as a result of issuance of either a MasterCard
Card or Visa Card; (c) “Cash Advance” means a loan that
Cardholder obtains from Bank using any of the methods specified
in this Agreement; (d) “Purchase” means a purchase of goods sold
or services of any kind from a seller or provider of goods or services;
(e) “Maximum Credit Limit” means the total dollar amount Bank
approves against which the Cardholder may make Purchases
through the use of Cards; (f) “Cash Advance Limit” means that
portion of the Maximum Credit Limit against which the Cardholder
may get Cash Advances through any of the methods specified in
this Agreement; (g) “Merchant” means a business displaying the
MasterCard and/or Visa signs; (h) “Overdraft Protection” means a
service for qualified checking account clients of Bank’s affiliated
financial institutions, which protects your designated checking
accounts from overdrafts and rejected items by making automatic
Cash Advances from your Cardholder Account.
AGREEMENT BETWEEN BANK AND CARDHOLDER
Cardholder agrees to be bound by the following terms, conditions,
and disclosures, which shall constitute the Agreement
between Bank and Cardholder. By accepting and using the
Card or a Convenience Check, or any feature of the Account,
or by electronically agreeing to the terms of this Agreement,
the Cardholder expressly agrees to be bound by the provisions
of this Agreement and to the rates and charges applicable to
the use of the Card, the Convenience Checks and any other
feature or transaction applicable to the Account. Cardholder
acknowledges that this Account s to be used primarily for
personal, family and household purposes.

4

COMMUNICATIONS CONSENT
You expressly consent and agree that Bank and our
affiliates, agents, assignees and service providers may use
written, electronic or verbal means to contact you. This
consent includes, but is not limited to, contact by manual
calling methods, prerecorded or artificial voice messages,
text messages, emails and/or automatic telephone dialing
systems. You agree that Bank and our affiliates, agents,
assignees and service providers may use any email address
or any telephone number you provide, now or in the future,
including a number for a cellular phone or other wireless
device, regardless of whether you incur charges as a result.
For any wireless (cell phone) number you provide, you
represent that you are the subscriber or are authorized
to consent to these communications on behalf of the
subscriber. You agree that Bank may monitor and record any
telephone calls to assure the quality of our service or for
other business reasons, and that you will advise us if your
contact information changes.
ELECTRONIC CONTRACTING
You agree that if you applied for your Card online, that: (i) this
Agreement is an electronic contract executed by you using your
electronic signature, (ii) your electronic signature signifies your
intent to enter into this Agreement and that this Agreement be
legally valid and enforceable according to its terms, (iii) that
the authoritative copy of this Agreement (“Authoritative Copy”)
will be the electronic record of this Agreement that is stored in a
document management system designated by us for the storage
of authoritative copies of electronic records produced and used in
the ordinary course of business, and (iv) no paper version of the
Authoritative Copy will be executed, although you may print a copy
of the Agreement for your own records.
1. Bank may refuse to issue the Card, or may revoke the Card
issued to Cardholder, with or without cause or notice. Any
revoked Card, along with any Convenience Checks, must
be surrendered upon demand or upon knowledge of its
revocation, to Bank or its agent designated to repossess the
Card. No expired or revoked Card or Convenience Checks
shall be used to obtain, or to attempt to obtain, credit.
2. Under the terms hereof Cardholder may, by use of the Card,
buy goods and services from businesses displaying the
MasterCard and/or Visa signs. A business displaying any of
the above signs shall be hereinafter referred to as Merchant.
Cardholder may also use the Card to borrow cash from any
bank displaying the appropriate sign. The Card must be signed
to insure proper use. The Card is not valid unless signed by the
Cardholder. Cardholder must follow any reasonable and proper
procedures required by a bank or Merchant honoring the Card.
3. Cardholder may utilize Convenience Checks as he would
checks written on a regular checking account. Bank will honor
a properly signed Convenience Check, which shall be deemed
to be signed written authorization for a Cash Advance. Any
Convenience Checks delivered to Cardholder will be similar to
regular checking account checks. The only party authorized to
5

sign a Convenience Check shall be the Cardholder regardless of
whether other individuals are authorized to receive extensions
of credit under this Agreement. Other than Convenience Checks
and personal checks drawn on a checking account for which
Cardholder has obtained Overdraft Protection, no other checks
may be used to obtain Cash Advances, and when paid by Bank
they will constitute a Cash Advance which will be debited to
Cardholder’s account. Bank shall not be obligated to certify any
Convenience Check issued under this Agreement. Convenience
Checks may only be written in U.S. Dollars. Also, Bank shall not
be obligated to pay a Convenience Check if such payment will
overextend Cardholder’s credit limit or if Cardholder’s account
is not in good standing. A Convenience Check cannot be used
to make a payment on your Cardholder Account.
4. Cardholders who are also qualifying checking account clients
may elect to utilize their Cardholder Account to provide Overdraft
Protection for one or more qualifying checking accounts. If you
have elected to use your Cardholder Account to provide Overdraft
Protection, automatic Cash Advances will be made against the
Credit Card Account to cover overdrafts in designated checking
accounts. The presentation of any check signed by any person
authorized to draw checks upon any checking accounts for which
you have elected Overdraft Protection or the assessment of any
other charges against the checking accounts in excess of the
balance in the checking accounts constitutes an authorization
for a Cash Advance to be made under this Agreement. We have
the sole discretion to determine whether to advance funds to the
checking accounts in the amount needed to cover each overdraft
amount item, up to the established Cash Advance Limit, to
pay checks, drafts, or any other charges when there is not a
sufficient balance in the checking accounts at the time such
checks, drafts, or other charges are presented or made. Bank
may refuse to authorize any Cash Advance in connection with
Overdraft Protection if the Cardholder Account is not in good
standing or if the Cash Advance would exceed the Cash Advance
Limit. Bank is not liable for any returned items or NSF fees. The
terms and conditions governing your checking accounts and
the fees (including any fees charged for Overdraft Protection)
associated with your checking accounts are contained in the
Bank Services Agreement and the Financial Services Pricing
Guide which are incorporated herein by reference.
5. Cardholder shall not use the Card, Convenience Checks or
Overdraft Protection if such use would make Cardholder’s debt to
Bank greater than the credit limit set by Bank from time to time.
6. Upon request, Cardholder may transfer outstanding balances from
other credit cards to the Card (“Balance Transfer”). Cardholder
has 10 days from the date the Account was opened to call Bank
at 1-800-476-4228 to cancel any Balance Transfers. Balance
Transfer processing time may vary so please continue to pay the
minimum amount due until the Balance Transfer amount appears
on the billing statement from your other creditor(s). All Balance
Transfers will be posted to the Cardholder’s Account as a Purchase,
with the Balance Transfers considered a part of the outstanding
balance from the date of the transfer. Bank may charge a Balance
Transfer Fee. Please see the Interest Rate and Interest Charges
document for any applicable Balance Transfer Fee.
6

7. The Bank at its discretion may from time to time increase
the credit limit of the cardholder.
8. The Bank may at anytime decrease the credit limit of the
cardholder if the Bank deems repayment of the debt to be at
risk or if the performance by the client is deemed impaired.
9. Bank may charge an annual fee to Cardholder’s account, in
advance, whether or not the Card is used to obtain extensions
of credit. The amount of the annual fee will be as specified from
time to time by notice or disclosure given by Bank to Cardholder.
10. Cardholder shall be responsible for the annual fee and
all credit obtained (through Purchases, Cash Advances, or
otherwise) by the authorized use of Card or Convenience
Checks, by any person. Further information regarding the
annual fee may be found in the Interest Rate and Interest
Charges document included with this mailing.
11. The following transactions are considered Cash Advances:
requesting cash in person at any bank; making a credit
transaction at participating ATM network machines; making
a credit transaction through online banking; funding a wire
transfer; purchasing of money orders, travelers checks, lottery
tickets, betting or casino chips, or cryptocurrency; writing a
Convenience Check; making a credit transaction by using BB&T
Phone24; or utilizing Overdraft Protection. A Cash Advance fee
will not be charged on Cash Advances made in connection with
Overdraft Protection. Fees may apply for other types of cash
advances as listed in paragraph 8(d) of the Truth in Lending
Disclosures. At the time of obtaining each Cash Advance
(other than at an ATM machine) or at the time of making each
purchase or credit transaction, Cardholder or his authorized
user, shall sign a Cash Advance slip, sales slip, or by any other
method Bank may approve from time to time, evidencing the
transaction. The word “slip” shall include a draft or any other
instrument acknowledging or recognizing the transaction.
Cardholder shall be furnished one copy of each slip signed by
the Cardholder; provided, however, that no such copy will be
furnished if Cardholder writes a Convenience Check, writes a
personal check(s) triggering Overdraft Protection or makes or
receives a credit transaction at an ATM machine or through
online banking or Phone24. Total Cash Advance limits and daily
Cash limits will be established by the Bank at its discretion.
12. If any Card or Convenience Checks are lost or stolen,
Cardholder shall immediately notify Bank upon discovery of
such loss or theft by calling 1-800-476-4228. Cardholder
shall cooperate completely with Bank in its attempts
to recover any losses suffered by Bank resulting from
unauthorized users and shall assist in the prosecution of
such persons. Further information regarding the procedures
for lost or stolen Cards or Convenience Checks is available
in paragraph 10 of the Truth in Lending Disclosures.
13. Bank shall have no liability or responsibility whatsoever
resulting from the refusal of any Merchant or any bank to
honor the Card or Convenience Checks, and Bank shall not
be, or be deemed to be, a party to any purchase or other
transaction between Cardholder (or other user of Card) and any
Merchant even though Bank may become obligated to make
disbursements directly to such Merchant. No cash refunds will
be made to, or accepted by, a Cardholder with respect to any
7

adjustments for, or returns of, goods or services purchased. Any
adjustment, return or refund in connection therewith shall be
accomplished only by credit to the Cardholder’s account with
Bank authorized by a properly executed credit slip.
14. If a Merchant discloses a policy such as “no returns”,
“no refunds”, “as is”, etc. you will be bound by that policy
when you use your Account to purchase goods or services
from that Merchant. Similarly, if you use your Account to
make travel or lodging reservations, you will be bound by
that Merchant’s cancellation policy.
15. If you authorize a Merchant to charge your Account for
recurring transactions without your card being present,
you agree to notify the Merchant when you discontinue the
transaction or if your Account is closed or a new Account
number is issued by us.
16. This Account may be used for legal purposes only. The
Bank at its discretion may block any transactions that
could be considered of an illegal or at-risk nature. We will
not be liable if you engage in an illegal transaction.
17. Bank will bill Cardholder monthly, on a date selected by Bank,
for amounts becoming due through use of Cardholder’s Card,
Convenience Checks or Overdraft Protection. Upon receipt,
Cardholder should examine each statement and immediately
notify Bank of any charge or item, which Cardholder believes
to be in error, or subject to dispute. Any charge or item as to
which Bank is not notified within sixty (60) days after billing
date shall be conclusively deemed to be correct.
18. If you disagree with a transaction on your statement or have
a dispute with the Merchant as a result of the transaction,
you agree to provide information or assistance we request.
Otherwise, you agree to pay us for any resulting loss we have
unless we are prohibited by applicable law from holding you
liable for our loss. Transactions made with the proceeds of a
Cash Advance are not covered by this paragraph.
19. Notwithstanding anything herein to the contrary, Bank may
declare you to be in default if one or more of the following events
occur: (a) default by Cardholder in making any payment when
due and payable, (b) default by Cardholder under any provision
of this Agreement, or any other agreement Borrower may have
with Bankcard or any of its affiliated banks (c) Cardholder’s
death, insolvency or making an assignment for the benefit
of creditors, (d) a petition being filed or any other proceeding
being commenced under the Federal Bankruptcy Code or any
state insolvency statute by or against Cardholder, or (e) a
receiver being appointed for, or a writ or order of attachment,
levy or garnishment being issued against Cardholder or any of
Cardholder’s property, assets or income, (f) or in the event Bank
shall deem itself or the debt unsafe or insecure or deems that
the prospect of payment or performance by customer is impaired,
(g) or if any of the undersigned or any Obligor shall fail to
furnish information to Bank sufficient to verify the identity of the
undersigned or any Obligor as required under the USA PATRIOT
Act then, at Bank’s option, all amounts from Cardholder to Bank
shall become immediately due and payable and in any such
event Cardholder agrees to pay all costs of collection permitted
by applicable law, including reasonable attorneys’ fees, incurred
by Bank in connection therewith.
8

20. If Cardholder chooses to pay less than the total new balance
as shown on Cardholder’s monthly periodic statement, a
total minimum payment is required for each billing cycle. The
total minimum payment is calculated as the greater of the
following: (1) 1% of your total new balance plus interest and
select fees, but not less than $27.00; or (2) 1% of your total
new balance plus interest, select fees, and the higher of any
past due amount or any amount over credit limit. Select fees,
as referenced above, include Late Payment Fees, Statement
Copy Fees, Customer Requested Expedited Service Fees, and
Revolving Account Protection (RAP) Coverage fees.
21. Cardholder agrees to make at least the minimum periodic payment
no later than the due date as indicated on the monthly periodic
statement provided by Bank. Bank may withhold availability of
credit until the payment of the item presented has been collected.
If Cardholder is late making the payment, Bank may, at its option,
charge the late payment fees as disclosed in paragraph 8 (b) of the
Truth in Lending Disclosures, in addition to the Interest Cardholder
owes under this Agreement.
Payments made in proper form as follows will be credited
as of the date of receipt:
• At any BB&T financial center during normal business
hours
• Through BB&T Phone24 by 6 pm EST
• Through BB&T Online Banking or BB&T Mobile by 7
pm EST
• By mail if received by 5 pm EST – please allow at
least 5 Business Days for delivery
22. The Bank will apply your payment in the following order:
Interest, Fees, and balances from highest to lowest APR.
23. Any notice required to be given by this Agreement, by law, or
desired to be given by Bank, shall be deemed effectively given
if and when posted in the United States mail addressed to
you at your billing or last known address on Bank’s records,
or delivered electronically through BB&T online banking, or
delivered by email, if legally permitted, to the address you have
provided. Cardholder agrees to promptly notify Bank if any of
your contact information changes, which may include your
name, mailing address, email address, or phone numbers.
24. Foreign Transactions and Fees: Visa or MasterCard
International will convert to U.S. dollars any charge or credit made
to your Account in currency other than U.S. dollars. The conversion
rate will be determined under Visa or MasterCard regulations.
The conversion rate may differ from the rate on the date of your
transaction. Currently, Visa and MasterCard use a currency
conversion rate of either: (1) a wholesale market rate, or (2) a
government-mandated rate. Visa and MasterCard use, under their
respective regulations, either the rate in effect on (1) the date
the transaction is processed or (2) the day before the date the
transaction is processed. Bank may charge a foreign transaction
fee for transactions made or processed outside the U.S. as listed
in paragraph 8(e) of the Truth in Lending Disclosures.
25. Change In Terms: Bank may change the terms of this
Agreement at any time. The new terms will apply to both
new Purchases and Cash Advances and any unpaid
balance and accrued INTEREST at the time the change is
9

effective. We will provide you with notice of the change to
the extent required by law.
26. Disputed Accounts: Bank will not be obligated to accept any
check, money order or other payment instrument marked “payment
in full” delivered on any disputed account, loan balance, fee or
expense owed, and Bank expressly reserves the right to reject all
such payment instruments. All communications concerning any
disputed amounts owed, including without limitation any payment
instrument tendered in good faith as full satisfaction of amount
owed, must be sent to the following address:
Disputed Accounts Bankcard Disputed Payments
P.O. Box 200
Wilson, NC 27894-0200
If Cardholder fails to send any communication, check,
money order or other payment instrument purporting to pay
any disputed amount due hereunder in full, to the address
designated above, the obligation referred to will not be satisfied,
and shall be deemed not to have been in good faith, even if such
payment instrument is inadvertently processed by Bank.
27. Accuracy of Credit Information: Bank regularly and in the
normal course of business reports its credit experience with
its customers to the major credit bureau repositories. Should
you believe that information we have reported about the credit
history of your Account(s) is inaccurate, please notify us at
the following address: BB&T Loan Services, P.O. Box 1847,
Wilson, North Carolina 27893-1847. Please include your name,
address, Social Security number, account number and a specific
explanation of what information you believe to be inaccurate.
28. Notice of Furnishing Negative Information: We may
report information about your account to credit bureaus.
Late payments, missed payments, or other defaults on your
account may be reflected in your credit report.
29. Important Information For:
California Residents: The applicant, if married, may
apply for a separate account. After credit approval, each
applicant shall have the right to use this account to the
extent of any credit limit set by the creditor and each
applicant may be liable for all amounts of credit extended
under this account to each joint applicant.
New York and Vermont Residents: We may obtain at any time your
credit reports for any legitimate purpose associated with the
account or the application or request for an account, including
but not limited to reviewing, modifying, renewing and collecting
on your account. On your request, you will be informed if such a
report was ordered. If so, you will be given the name and address
of the consumer reporting agency furnishing the report. New York
residents may contact the state banking department to obtain a
comparative listing of credit card rates, fees and grace periods.
New York State Banking Department: 1-800-518-8866.
Ohio Residents: The Ohio laws against discrimination
require that all creditors make credit equally available to all
creditworthy customers and that credit reporting agencies
maintain separate credit histories on each individual upon
request. The Ohio Civil Rights Commission administers
compliance with this law.
Utah Residents: As required by Utah law, you are hereby
notified that a negative credit report reflecting on your
10

credit record may be submitted to a credit reporting agency
if you fail to fulfill the terms of your credit obligation.
Married Wisconsin Residents: No provision of any marital
property agreement, unilateral statement, or court order
applying to marital property will adversely affect a creditor’s
interests unless prior to the time credit is granted, the
creditor is furnished with a copy of the agreement, statement
or court order, or has actual knowledge of the provision.
30. Governing Law: This Agreement and my Account shall
be governed by the laws of the United States and, to the
extent applicable, the laws of the State of North Carolina,
regardless of where Cardholder resides or uses the Account.
31. Introductory and Promotional Rates and Fees: At the
time your Account is opened, Bank may offer introductory or
promotional rates and fees for a specified period of time that
will be disclosed in your Interest Rate and Interest Charges
document. If your Account is eligible, Bank may, from time
to time, offer introductory or promotional rates and fees
after your Account is opened. The terms of that offer will
be disclosed to you at that time and may differ from any
prior introductory or promotional offers. After introductory or
promotional rates and fees expire, the remaining balances
will be subject to your standard applicable APR and fees.
ARBITRATION AGREEMENT
The following arbitration agreement does not apply to you if
you were a member of the active military, or were a spouse or
dependent of a member of the active military, at the time you
applied to establish your account and your account is subject to
the provisions of the Military Lending Act, 10 U.S.C. § 987 and its
implementing regulations, 32 C.F.R. § 232.1, et seq.
32. IT IS IMPORTANT THAT YOU READ THIS ARBITRATION
PROVISION CAREFULLY. IT PROVIDES THAT YOU MAY BE
REQUIRED TO SETTLE A CLAIM OR DISPUTE THROUGH
ARBITRATION, EVEN IF YOU PREFER TO LITIGATE SUCH
CLAIMS IN COURT. YOU ARE WAIVING RIGHTS YOU MAY HAVE
TO LITIGATE THE CLAIMS IN A COURT OR BEFORE A JURY.
YOU ARE WAIVING YOUR RIGHT TO PARTICIPATE IN A CLASS
ACTION LAWSUIT, CLASS ACTION ARBITRATION, OR OTHER
REPRESENTATIVE ACTION WITH RESPECT TO SUCH CLAIMS.
Any dispute, claim, controversy or cause of action, that is
filed in any court and that arises out of or relates to this
Agreement or Cardholder’s application for a Card, or the breach,
termination, enforcement, interpretation or validity thereof,
including the determination of the scope or applicability of
this agreement to arbitrate, shall be determined by arbitration
before one arbitrator at a location mutually agreed upon in the
state where your account is maintained, or as may be otherwise
required under the JAMS Minimum Consumer Standards, which
is incorporated by reference herein. The arbitration shall be
administered by JAMS pursuant to its Streamlined Arbitration
Rules & Procedures. Judgment on an award may be entered in
any court having jurisdiction. This clause shall not preclude
a party from seeking provisional remedies in aid of arbitration
from a court of appropriate jurisdiction. The arbitrator may,
11

in its award, allocate all or part of the costs of the arbitration,
including the fees of the arbitrator and the reasonable attorneys’
fees of the prevailing party. Notwithstanding other language in
this agreement, a party retains the right to bring an action in
small claims court if it is within the jurisdictional limits of that
court. If a party elects arbitration, it may be conducted as an
individual action only. This means that even if a demand for a
class action lawsuit, class arbitration, or other representative
action (including a private attorney general action) is filed, the
matter will be subject to individual arbitration. Either party may
bring a summary or expedited motion to compel arbitration or
to stay the applicable litigation of a dispute in any court. Such
motion may be brought at any time, and the failure to initiate
or request arbitration at the beginning of litigation shall not
be construed as a waiver of the right to arbitration. If a party
elects to arbitrate it shall provide notice to the other party. The
Bank shall provide notice to you at the address we have in our
records, and you may provide notice to: Litigation Practice Group
Manager, BB&T Legal Department, P.O. Box 1255, WinstonSalem, NC 27102. You may obtain a copy of the rules of the
arbitration administrator, including information about consumer
arbitration, fees, and instructions for initiating arbitration by
contacting JAMS at www.jamsadr.com. Phone: 800-352-5267.
You and the Bank each agree that under this Agreement, you and
the Bank are participating in transactions involving interstate
commerce which shall be governed by the provisions of the
Federal Arbitration Act, Title 9 of the United States Code (“FAA”)
and not by any state law concerning arbitration. The arbitrator
shall follow applicable substantive law to the extent consistent
with the FAA, applicable statutes of limitation and applicable
privilege rules, and shall be authorized to award all available
remedies, including without limitation, damages (to the extent
not limited by this Agreement), declaratory, injunctive and other
equitable relief, and attorneys’ fees and costs. The arbitrator
shall follow rules of procedure and evidence consistent with the
FAA, this provision, and the administrator’s rules.
Any court with jurisdiction may enter judgment upon the
arbitrator’s award. The arbitrator’s award will be final and
binding, except for any appeal right under the FAA. Unless
applicable law provides otherwise, the appealing party will pay
the cost of appeal, regardless of its outcome. However, we will
consider in good faith any reasonable written request for us to
bear the cost of your appeal. We will pay any fees or expenses
we are required by law to pay or in order to make this arbitration
provision enforceable.
This arbitration provision shall survive termination or
suspension of the Account or this Agreement, and shall survive
payment of Cardholder’s obligations under this Agreement or
termination of any or all Cards. If any portion of this arbitration
provision is deemed invalid or unenforceable, it shall not
invalidate the remaining portions of this arbitration provision or
Agreement; provided, however, if the limitations on class actions
are struck in a proceeding brought on a class, representative
or private attorney general basis, without impairing the right
12

to appeal such decision, this entire arbitration provision (other
than this proviso) shall be null and void in such proceeding.
TRUTH IN LENDING DISCLOSURES AND COMPUTATION OF
ANNUAL PERCENTAGE RATES/FEES
Branch Banking and Trust Company (hereinafter “we,” “our,”
and “us”) makes the following Truth in Lending Disclosures
to Cardholder (hereinafter “you,” “your”). You agree that
the rate and charges and methods of computation and
repayment in connection with use of the Card are as follows:
1. Computation of INTEREST on Purchases (Daily):
(a) No INTEREST is imposed on Purchases if the total new
balance as shown on your monthly periodic statement is paid
in full within 25 days of the statement date. INTEREST is
imposed on Balance Transfers from the date of the transfer.
(b) Where payment of the total new balance is not made in full
within 25 days (or when the new balance includes Balance
Transfers), INTEREST will be imposed on your Purchase balance.
We calculate INTEREST on this portion of your Account by
applying the daily periodic rate to the beginning daily balance
for Purchases plus any new Purchases and fees (other than Cash
Advance fees) and less any payments or credits. To compute
the daily balance for Purchases we take the beginning Purchase
balance of your account each day, add any new Purchases, fees
(other than Cash Advance fees) and any INTEREST on the current
day’s balance, and we subtract any payments or credits. This gives
us the daily balance. A Purchase appearing on your statement is
considered a part of the outstanding balance from the date of the
transaction or, if posting occurs in the next billing cycle, then from
the first day of the next billing cycle.
(c) See the Interest Rate and Interest Charges document included
with this mailing for the ANNUAL PERCENTAGE RATE. The daily
periodic rate is the annual percentage rate divided by 365.
2. Computation of INTEREST on Cash Advances (Daily):
(a) INTEREST is imposed for each day that you have the
Cash Advance.
(b) The amount, which will be subject to INTEREST, is the
daily balance of your Cash Advances during the billing cycle.
We calculate the INTEREST on this portion of your Account by
applying the daily periodic rate to the beginning daily balance
for Cash Advances plus any new Cash Advances and Cash
Advance fees and less any payments or credits. To compute the
daily balance for Cash Advances we take the beginning Cash
Advance balance of your account each day, add any new Cash
Advances, any Cash Advance fees and any INTEREST on the
current day’s balance, and we subtract any payments or credits.
This gives us the daily balance. A Cash Advance appearing on
your statement is considered a part of the outstanding balance
from the date of the transaction or, if posting occurs in the next
billing cycle, then from the first day of the next billing cycle.
(c) See the Interest Rate and Interest Charges document included
with this mailing for the ANNUAL PERCENTAGE RATE. The daily
periodic rate is the annual percentage rate divided by 365.
3. Computation of INTEREST with Special Rate (Daily):
(a) If we have special periodic rate offers in effect from
time to time, we will separately identify them on your
monthly statement and separately disclose on your monthly
13

statement the balance to which the special offers apply.
These separate balances and the related periodic INTEREST
will be calculated in the same manner as described above
for the current or previous cycle transactions, as applicable.
(b) Special rate offers may apply to special convenience
checks. If so, special convenience checks will be issued and,
if used, will be posted to the account as Purchases, with
INTEREST imposed from the transaction date.
(c) When a special rate offer expires, the annual
percentage rates under 1 (c) and/or 2(c) will apply.
(d) If applicable, see the Interest Rate and Interest Charges
document included with this mailing and incorporated by
reference for the special introductory ANNUAL PERCENTAGE
RATE. The special introductory daily periodic rate is the
special annual percentage rate divided by 365.
4. Computation of INTEREST on Purchases (Monthly):
(a) No INTEREST is imposed on Purchases if the total new
balance as shown on your monthly periodic statement is paid
in full within 25 days of the statement date. INTEREST is
imposed on Balance Transfers from the date of the transfer.
(b) Where payment of the total new balance is not made in full
within 25 days (or includes Balance Transfers), INTEREST will
be imposed on your Purchase balance. We calculate INTEREST
on this portion of your Account by applying the monthly periodic
rate to the Average Daily Purchase Balance. To determine the
Average Daily Purchase Balance of any account, we will take
the beginning Purchase balance of the account each day, add
any new Purchases (including Balance Transfers) and Fees
(except Cash Advance fees), and subtract any payment or
credits. This produces the daily Purchase balance. Then, we
add up the daily Purchase balances for each day in the billing
cycle and divide the total by the number of days in the billing
cycle. This produces the Average Daily Purchase Balance.
A Purchase appearing on your statement is considered
a part of the outstanding balance from the date of the
transaction or, if posting occurs in the next billing cycle,
then from the first day of the next billing cycle.
(c) See the Interest Rate and Interest Charges document
included with this mailing for the ANNUAL PERCENTAGE RATE.
The monthly periodic rate is 1/12 of the annual percentage rate.
5. Computation of INTEREST on Cash Advances (Monthly):
(a) INTEREST is imposed for each day that you have the
Cash Advance.
(b) The amount, which will be subject to INTEREST, is the Cash
Advance Balance. We calculate INTEREST on this portion of your
Account by applying the monthly periodic rate to Average Monthly
Cash Advance Balance. To determine the Average Daily Cash
Advance Balance of any account (including current transactions),
we will take the beginning Cash Advance Balances of the account
each day, add new Cash Advances and Cash Advance fees and
subtract any payments or credits. This produces the daily Cash
Advances balance. Then, we add up the daily balances for each
day in the billing cycle and divide the total by the number of
days in the billing cycle. This produces the Average Daily Cash
Advance balance. A Cash Advance appearing on your statement is
considered a part of the outstanding balance from the date of the
14

transaction or, if posting occurs in the next billing cycle, then from
the first day of the next billing cycle.
(c) See the Interest Rate and Interest Charges document
included with this mailing for the ANNUAL PERCENTAGE
RATE. The monthly periodic rate is 1/12 of the annual
percentage rate.
6. Computation of INTEREST with Special Rate (Monthly):
(a) If we have special periodic rate offers in effect from
time to time, we will separately identify them on your
monthly statement and separately disclose on your monthly
statement the balance to which the special offers apply.
These separate balances and the related periodic INTEREST
will be calculated in the same manner as described above
for the current or previous cycle transactions, as applicable.
(b) Special rate offers may apply to special convenience
checks. If so, special convenience checks will be issued
and, if used, will be posted to the account as Purchases,
with INTEREST imposed from the transaction date.
(c) When a special rate offer expires, the annual
percentage rates under 4 (c) and/or 5 (c) will apply.
(d) If applicable, see the Interest Rate and Interest Charges
document included with this mailing and incorporated by
reference for the special introductory ANNUAL PERCENTAGE
RATE. The special introductory monthly periodic rate is
1/12 of the special annual percentage rate.
7. Minimum INTEREST: See the Interest Rate and Interest
Charges document included with this mailing and
incorporated by reference for the minimum INTEREST charge.
8. Fees and Charges: These fees will be subject to the applicable
INTEREST as provided in paragraphs 1, 2, 4 and 5 above.
(a) Annual Fee: See the Interest Rate and Interest Charges
document included with this mailing and incorporated by
reference for the annual fee.
(b) Late Payment Fee: See the Interest Rate and Interest Charges
document included with this mailing and incorporated by reference
for the late payment fee.
(c) Balance Transfer Fee: See the Interest Rate and
Interest Charges document included with this mailing and
incorporated by reference for the balance transfer fee.
(d) Cash Advance Fee: See the Interest Rate and Interest
Charges document included with this mailing and
incorporated by reference for the cash advance fee.
(e) Foreign Transaction Fee: See the Interest Rate and
Interest Charges document included with this mailing and
incorporated by reference for foreign transaction fee.
(f) Return Payment Fee: See the Interest Rate and Interest
Charges document included with this mailing and
incorporated by reference for return payment fee.
(g) Statement Copy Fee: See the Interest Rate and Interest
Charges document included with this mailing and
incorporated by reference for statement copy fee.
(h) Customer Requested Expedited Service Fee: See the Interest
Rate and Interest Charges document included with this mailing
and incorporated by reference for customer requested expedited
service fee.
9. We retain no security interest in any property purchased
with your Card.
15

10. You will not be liable for any unauthorized use of your Card or
Convenience Checks if you report the loss, theft or unauthorized
use. Written notice should be provided to Branch Banking and
Trust Company, P.O. Box 698, Wilson, North Carolina 27894-0698.
Verbal notice should be given by calling 1-800-476-4228. A
transaction is considered unauthorized if it is initiated by someone
other than the Cardholder without the Cardholder’s actual, implied,
or apparent authority, and the Cardholder receives no benefit
from the transaction. We may conduct an investigation of your
claim, and we may deny your claim if we reasonably conclude
that the facts and circumstances do not reasonably support a
claim of unauthorized use. We may require you to provide a written
statement, affidavit or other information in support of your claim
of unauthorized use. If you do not provide supporting information
within the time requested or within a reasonable period of time if a
date is not stated, we may deny your claim of unauthorized.
YOUR BILLING RIGHTS
KEEP THIS NOTICE FOR FUTURE USE
This notice contains important information regarding your
rights and our responsibilities under the Fair Credit Billing Act.
What To Do If You Think You Find a Mistake On Your
Statement
If you think there is an error on your statement, write to us at:
Customer Service
PO Box 30495
Tampa FL 33630-3495
In your letter, give us the following information:
• Account information: Your name and account number;
• The posting date of the transaction in question;
• Dollar amount: The dollar amount of the suspected
error; and
• Description of Problem: If you think there is an error
on your bill, describe what you believe is wrong and
why you believe it is a mistake.
You must contact us within 60 days after the error
appeared on your statement.
You must notify us of any potential errors in writing.
You may call us, but if you do, we are not required to
investigate any potential errors and you may have to pay
the amount in question.
While we investigate whether or not there has been an
error, the following are true:
• We cannot try to collect the amount in question, or
report you as delinquent on that amount.
• The charge in question may remain on your
statement, and we may continue to charge you
interest on that amount. If we determine that we
made a mistake, you will not have to pay the amount
in question or any interest or other fees related to
that amount.
• While you do not have to pay the amount in question,
you are responsible for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.
16

Your Rights and Our Responsibilities After We Receive
Your Written Notice
We must acknowledge your letter within 30 days, unless we have
corrected the error by then. Within 90 days, we must either correct
the error or explain why we believe the statement was correct.
After we receive your letter, we cannot try to collect any
amount you question or report you as delinquent. We can
continue to bill you for the amount you question, including
interest, and we can apply any unpaid amount against your
credit limit. You do not have to pay any questioned amount
while we are investigating, but you are still obligated to pay
the parts of your statement that are not in question.
If we find that we made a mistake on your statement, you
will not have to pay any interest related to any questioned
amount. If we did not make a mistake, you may have to pay
interest, and you will have to make up any missed payments
on the questioned amount. In either case, we will send you a
statement of the amount you owe and the date that it is due.
If you fail to pay the amount that we think you owe, we may report
you as delinquent. However, if our explanation does not satisfy
you and you write to us within ten days telling us that you still
refuse to pay, we must tell anyone we report you to that you have
a question about your statement. And, we must tell you the name
of anyone we reported you to. We must tell anyone we report you
to that the matter has been settled between us when it finally is.
If we do not follow these rules, we cannot collect the first $50
of the questioned amount, even if your statement was correct.
Your Rights If You Are Dissatisfied With Your Credit Card
Purchases
If you are dissatisfied with the goods or services that you have
purchased with your credit card and you have tried in good faith
to correct the problem with the merchant, you may have the
right not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state
or within 100 miles of your current mailing address, and
the purchase price must have been no more than $50.
(Note: Neither of these is necessary if your purchase was
based on an advertisement we mailed to you, or if we
own the company that sold you the goods or services.)
2. You must have used your credit card for the purchase.
Purchases made with cash advances from an ATM or
with a check that accesses your credit card account do
not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still
dissatisfied with the purchase, contact us in writing at:
Customer Service
PO Box 30495
Tampa FL 33630-3495

17

While we investigate, the same rules apply to the
disputed amount as discussed above. After we finish our
investigation, we will tell you our decision. At that point,
if we think you owe an amount and you do not pay, we may
report you as delinquent.
MasterCard and Visa Credit Cards are issued by Branch Banking
and Trust Company, Member FDIC and Equal Housing Lender.

Rev. 11/19

I002805 - Secure Card

